                                        National Science Foundation
                                           4201 Wilson Boulevard
                                          Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:              September 30, 2011

TO:                Jeffery Lupis, Division Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Dr. Brett M. Baker /s/
                   Assistant Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-11-1-021, Evaluation of National Ecological
         Observatory Network’s (NEON) Construction Proposal

Background

We contracted with the Defense Contract Audit Agency (DCAA) to perform an audit of National
Ecological Observatory Network’s (NEON) $433.7 million Construction Proposal. The
construction is anticipated to be performed over a five-year period from FY 2011 through FY
2016. 1 The first objective of this engagement was to assess the adequacy of NEON’s
construction proposal to determine if the proposal is acceptable for audit. If found to be
adequate for audit, then the second objective was to determine whether the proposal was
prepared in accordance with applicable federal requirements and is considered acceptable as a
basis for funding a fair and reasonable price. DCAA conducted several walkthroughs of the
proposal with NEON and held several meetings between NEON, NSF management, and OIG
between July and September, 2011.

NSF funded $12.5 million of the $433.7 million NEON construction budget with Major
Research Equipment and Facilities Construction (MREFC) funds under Cooperative Support
Agreement Award No. EF-1029808 dated August 1, 2011.

Evaluation Results

DCAA determined that the NEON proposal is inadequate for audit; therefore, DCAA did not
complete its audit of the proposal. DCAA’s letter of inadequacy, dated September 16, 2011, and
NEON’s response, dated September 28, 2011, is attached. NEON’s proposal is inadequate for
audit because none of its proposed cost elements for labor, overhead, equipment, etc., reconcile
to its supporting data. The proposed total amount of $433,789,932 is $1,840,159 less than the
1
  The purpose of the NEON project is to enable understanding and forecasting of the impacts of
climate change, land use change and invasive species on continental‐scale ecology by providing
infrastructure and consistent methodologies to support research and education in these areas.
                                                                  NSF OIG Audit Report No. OIG-11-1-021


total cost detail provided. DCAA also found four additional inadequacies in NEON’s proposal
concerning the lack of 1) a time phasing of costs for the proposed period of performance; 2) a
consolidated bill of materials and equipment; 3) a consolidated listing of labor costs by job
categories; and 4) an explanation of how indirect costs were computed.

Further, the NEON proposal includes $74,174,000 of contingency costs, which are unallowable
under federal regulations and $1,606,354 of honoraria costs, which are also a type of
unallowable contingency cost. In summary, DCAA cited total unallowable contingency costs of
$75,780,354 ($74,174,000+$1,606,354).

While contingencies may be included in Government developed budgets, awardees are not
allowed to include contingency costs in the proposal they submit to the Government. At
minimum, only estimates that are supported by adequate verifiable cost data should be included
in proposals that are funded by the Government. DCAA recommended that NSF obtain an
adequate proposal from NEON.

NEON disagreed that they were not able to support the $433.7 million in the NEON proposal,
but agreed that they lacked a consolidated listing of labor costs by job categories. NEON
expressed that they lacked an understanding of some of DCAA’s other findings, however,
NEON indicated that they looked forward to working with DCAA to achieve an auditable
proposal. NEON’s response is attached.

Path Forward

In a recent meeting between OIG, Clifton Gunderson 2, DCAA and NSF officials, on September
21, 2011, DCAA agreed to meet with NEON and NSF management to walk through NEON’s
proposal, supporting documentation, and contingency estimates to ensure all parties have a clear
understanding of federal requirements for adequate proposals and verifiable supporting
documentation. 3

Recommendations

We recommend that the NSF Director of the Division of Acquisition and Cooperative Support:

       1. Request NEON to revise and resubmit an adequate construction proposal correcting all of
          DCAA’s cited deficiencies.

       2. Require NEON to identify and remove unverifiable contingency provisions from its
          proposed budgets.

2
    Clifton Gunderson is NSF’s financial statement auditor.
3
  DCAA’s agreement to meet also extends to two other major NSF construction awardees that
proposed contingency costs: Consortium of Ocean Leadership (for OOI), and Association of
Universities for Research in Astronomy (for ATST). In the case of OOI, the proposal was found
to be auditable; but in the case of ATST, the proposal was deemed inadequate for audit.




                                                              2
                                                      NSF OIG Audit Report No. OIG-11-1-021



   3. Participate in DCAA’s walk-through of NEON’s proposal, supporting documentation,
      and contingency estimates to ensure that the awardee and NSF management fully
      understand federal requirements for an auditable proposal and verifiable supporting
      documentation.

   4. Once the proposal is deemed adequate for audit, obtain a completed DCAA proposal
      audit report, and based on the results of audit, negotiate a revised award price with
      NEON.


In accordance with OMB Circular A-50, please coordinate with our office during the six-month
resolution period to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that the recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to the NEON Program Director and the Director
of Large Facilities Projects. The responsibility for audit resolution rests with DACS.
Accordingly, we ask that no action be taken concerning the report’s findings without first
consulting DACS at (703) 292-8242.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

   •   Reviewed DCAA’s approach and planning of the audit;
   •   Evaluated the qualifications and independence of the auditors;
   •   Monitored the progress of the adequacy assessment at key points;
   •   Coordinated periodic meetings with DCAA and NSF officials as necessary to discuss
       progress, findings and recommendations;
   •   Reviewed the inadequacy letter prepared by DCAA to ensure compliance with Office of
       Management and Budget Circulars; and
   •   Coordinated issuance of the inadequacy letter.

DCAA is responsible for the attached inadequacy letter and the conclusions expressed therein.
The NSF OIG does not express any opinion on NEON’s construction proposal or the conclusions
presented in DCAA’s inadequacy letter.




                                              3
                                                      NSF OIG Audit Report No. OIG-11-1-021




We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact David Willems at (703) 292-4979 or Jannifer Jenkins
at (703) 292-4996.




Attachments:
DCAA Letter No. 3121-2011J21000001, Cancellation of the NSFAudit of the National
Ecological Observatory Network, Inc. (NEON) Construction Proposal for the Proposed Amount
of $433 Million Due to the Inadequacy of the Proposal, dated September 16, 2011

NEON Response to DCAA Inadequacy Letter, dated September 28, 2011

cc:    Martha Rubenstein, CFO and Director BFA
       Mary Santonastasso, Division Director, DIAS
       Elizabeth Blood, NEON Program Director, Division of BIO
       Mark Coles, Director Large Facilities Projects , BFA/OAD
       Clifford Gabriel, Senior Advisor, OD




                                              4
                                       DENVER BRANCH OFFICE
                                          CENTRAL REGION
                                  DEFENSE CONTRACT AUDIT AGENCY
                                      DEPARTMENT OF DEFENSE
                                         10375 PARK MEADOWS DRIVE, SUITE 560
                                                LITTLETON, CO 80124-6791
IN REPLY REFER TO



       820.6A/3121-2011J21000001                                                     September 16, 2011

       Mr. David Willems
       National Science Foundation
       Office of the Inspector General
       4201 Wilson Boulevard
       Arlington, VA 22230
       Email – dwillems@nsf.gov

       SUBJECT:      Cancellation of the National Science Foundation Audit of the National Ecological
                     Observatory Network, Inc. (NEON) Construction Proposal for the Proposed
                     Amount of $433 Million Due to the Inadequacy of the Proposal

       REFERENCE:        Cooperative Support Agreement Award No. 1029808 resulting from NSF’s
                         Construction Readiness Review April 2011

              As requested, we are providing additional information on the cancellation of the NEON
       proposal. As stated in the September 6, 2011 memorandum and discussed between you and
       Vicki DeLeon, Branch Manager, on August 31, 2011, we are cancelling the audit of NEON’s
       proposal in the amount of $433,789,932 because it remains inadequate for audit. The April 2011
       referenced by NSF was dated July 22, 2011 on the bottom of the proposal summary sheet. Based
       on our meetings with NEON, they are not able to support the $433,789,932 proposed amount
       with supporting cost and pricing data. NEON’s proposed cost elements do not reconcile to its
       supporting data. We noted differences in the following items:

                                                                           Revision 1
                                                   Proposed Cost         Proposed Cost   Supported by Cost
                       Cost Element                Dated 2/2010          Dated 7/22/11   and Pricing Data
820.6A/3121-2011J21000001                                              September 16, 2011
SUBJECT: Cancellation of the National Science Foundation Audit of the National Ecological
            Observatory Network, Inc. (NEON) Construction Proposal for the Proposed
            Amount of $433 Million Due to the Inadequacy of the Proposal

        As shown in the table above, the bottom line proposal did not change from February 2010
to the July 2011 proposal; however, the individual cost elements changed. Further, the proposed
amount of $433,789,932 is $1,840,159 less than the cost and pricing data detail provided by
NEON in total and each cost element has variances. In our meetings with NEON, they
acknowledged variances existed between its proposal and supporting data but stated the data
provided was out of its COBRA system and could not reconcile the differences.

       We discussed proposal inadequacies with NEON during our initial meetings and proposal
walk-through held on August 10, 2011. We also notified NEON in our letter dated August 16,
2011, of the following inadequacies:

           1. The proposal did not include a time phasing of costs for the proposed contract
                 period of performance.

           2. The proposal did not include a consolidated bill of materials and equipment for
                 the proposed direct material and direct equipment costs under the anticipated
                 contract.

           3. The proposed direct labor did not include a consolidated listing of labor costs by
                 job categories for the contract base period which includes total direct labor
                 costs.

           4. The proposal does not show how the proposed indirect costs were computed.
                 OMB 2 CFR Part 230.50(C) requires the breakout of indirect cost components
                 into two broad categories, Facilities and Administration.

         Further, as discussed in our August 24, 2011 memorandum, NEON proposed
$74,174,000 (approximately 17 percent) of total proposed costs as “contingencies,” which are
unallowable per 2 CFR Part 230, Appendix B, Paragraph No. 9, Contingency Provisions, which
states, “Contributions to a contingency reserve or any similar provision made for events the
occurrence of which cannot be foretold with certainty as to time, intensity, or with an assurance
of their happening, are unallowable.” In addition, NEON’s proposal included $1,606,354 of
honorarium costs to universities. Honoraria are defined as one time services for which custom
forbids a price to be set or where no expectation exists for payment for services. OMB Circular
A-122, Appendix B to Part 230, Number 33, Participant support costs, states participant support
costs are only allowable with the prior approval of the awarding agency. Therefore, it is likely
we will also question these costs as contingency costs because NEON will not be able to provide
cost or pricing data to support the proposed costs.

        While contingencies may be included in Government developed budgets, contractors are
not allowed to include contingency costs in the proposal they submit to the Government per
OMB Circular A-122, Appendix B, and the NSF’s Proposal and Award Policies and Procedures
Guide. There is a difference between Government estimates for budgeting purposes (wherein
contingency costs are used to provide more realistic costs) and proposed costs (wherein OMB

                                                2
820.6A/3121-2011J21000001                                              September 16, 2011
SUBJECT: Cancellation of the National Science Foundation Audit of the National Ecological
            Observatory Network, Inc. (NEON) Construction Proposal for the Proposed
            Amount of $433 Million Due to the Inadequacy of the Proposal

Circular A-122, Appendix B provides that contingency costs are unallowable).

        NEON, who is the awardee/proposer, is a non-profit organization. The National Science
Foundation (NSF) Proposal and Award Policies and Procedures Guide (NSF PAPPG), Part I,
Chapter II, Section g, page II-11, provides that a proposal may request funds so long as the item
and amount are considered “necessary, reasonable, allocable, and allowable under the applicable
cost principles.” The NSF PAPPG (page II-17) also provides that “proposers should be familiar
with the complete list of unallowable costs that is contained in the applicable costs principles.”

       We determined that OMB Circular A-122 applies to non-profit organizations. Based on
the application of 2 CFR Part 230, Appendix B, Paragraph No. 9 we consider NEON’s proposed
contingency costs in the amount of $74 million as unallowable costs.

        When a government agency issues a solicitation for a grant, cooperative agreement, or
contract (award), the responsible party (awardee) will prepare a budget or proposal depending on
the type of award. The technical portion is prepared based on the direction of the buying/funding
office’s requirements to achieve the end product while the financial portion is based on the
applicable regulatory cost principles. The applicable regulatory requirements are determined
based on the awardee’s type of entity.

       •   Educational institutions will use the cost principles in OMB Circular A-21
       •   State, local and Indian tribal governments will use OMB Circular A-87
       •   Non-profit organizations will use OMB Circular A-122, and
       •   Commercial organizations will use FAR Part 31.

        NEON is a non-profit organization and therefore its costs for pricing, administration, or
settlement of awards must be in compliance with OMB Circular A-122 cost principles for non-
profit organizations. No exceptions are available to awardees for determining applicable cost
principles.

       Because of the inadequate submission, we have discontinued our audit. Until NEON
submits an adequate submission supported by cost and pricing data, we cannot proceed with an
audit. We recommend NSF obtain an adequate proposal from NEON.

        Any questions on this matter should be directed to Ms. Vicki DeLeon, Branch Manager,
at (303) 969-5000. Our e-mail address is dcaa-fao3121@dcaa.mil.



                                                     /SIGNED/




                                                 3
